September 18, 2009

HONORABLE PATRICK E. MCFARLAND
INSPECTOR GENERAL
UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

SUBJECT: Agreed Upon Procedures Report – Independent Report on Withholdings
         and Contributions for Health Benefits, Life Insurance, Retirement, and
         Employee Headcount Data (Report Number FT-AR-09-010)

We performed the procedures agreed upon by the Inspector General and the Chief
Financial Officer of the U.S. Office of Personnel Management (OPM). We performed
the procedures solely to assist the OPM in verifying employee withholdings and
employer contributions reported in the Report of Withholdings and Contributions for
Health Benefits, Life Insurance, and Retirement for the payroll periods ended August
29, 2008; February 27, 2009; and April 24, 2009; and the enrollment information
reported on the Supplemental Semiannual Headcount Report for September 2008 and
March 2009. See Appendix A for additional information about this engagement, and
Appendix B for a description of the procedures.

Conclusion

We were able to verify the employee withholdings, employer contributions, and
enrollment information reported and transferred to the OPM for health benefits, life
insurance, and retirement. We did not identify any errors or differences that exceeded
the materiality limits the OPM established.

We were not engaged to and did not perform an audit, the objective of which would
have been the expression of an opinion on the withholdings and contributions for health
benefits, life insurance, and retirement, and the headcount report of the U.S. Postal
Service. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that we would have
reported to you.

The sufficiency of the procedures is solely the responsibility of the Inspector General
and the Chief Financial Officer of the OPM. Consequently, we make no representation
regarding the sufficiency of the procedures described in the attachment, either for the
purpose for which this report has been requested, or for any other purpose.
Independent Report on Withholdings and Contributions for Health Benefits,      FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data




This report is intended solely for the use of the Inspector General and the Chief
Financial Officer of the OPM and should not be used by those who have not agreed to
the procedures and taken responsibility for the sufficiency of the procedures for their
purposes.

If you have any questions, please contact John Cihota, Deputy Assistant Inspector
General for Financial Accountability, or Lorie Nelson, Director, Financial Reporting at
(703) 248-2100.




Tammy L. Whitcomb
Assistant Inspector General
 for Audit

Attachments

cc: Mark Reger
    Michael R. Esser
    William W. Scott, Jr.
Independent Report on Withholdings and Contributions for Health Benefits,                          FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service Information Technology and Accounting Service Center in Eagan,
MN, is responsible for calculating, disbursing, and reporting employee withholdings and
Postal Service contributions for health benefits, life insurance, and retirement. As of
March 6, 2009, the Postal Service employed more than 748,600 people (approximately
632,400 with benefit entitlements).

During each payroll period reviewed,1 the Postal Service withheld more than $84 million
and contributed about $305 million toward benefits. The Postal Service transmitted
these funds to the OPM via the Retirement and Insurance Transfer System (RITS) and
prepared the Report of Withholdings and Contributions for Health Benefits, Life
Insurance, and Retirement for each payroll period detailing the amounts associated with
each benefits category. Additionally, the Postal Service submitted the Supplemental
Semiannual Headcount Report detailing the number of employees associated with each
benefits category for September 2008 and March 2009 to the OPM.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assist the OPM in verifying:

        Employee withholdings and employer contributions reported on the Report of
        Withholdings and Contributions for Health Benefits, Life Insurance, and
        Retirement.

        Enrollment information reported on the Supplemental Semiannual Headcount
        Report.

To accomplish our objective, we applied the procedures included in Appendix B to the
pay periods ending August 29, 2008, and February 27, 2009, coinciding with the
Supplemental Semiannual Headcount Report for September 5, 2008, and March 6,
2009, respectively. We randomly selected another pay period ending on April 24, 2009,
for additional testing.

We confirmed RITS data by verifying payroll source documents. For a sample of
45 employees,2 we reviewed personnel documents to verify salaries, retirement, and
the election or nonelection of health benefits and life insurance. For all employees, we
independently calculated employee withholdings, Postal Service contributions, and
enrollment information for health benefits, life insurance, and retirement. We compared


1
  This timeframe included approximately 73,400 employees who declined health benefits and approximately 1,500
employees who waived life insurance coverage.
2
  The universe for sample selection does not include approximately 161,300 employees who elected health benefits
and basic life insurance only (no optional coverage elected).
Independent Report on Withholdings and Contributions for Health Benefits,                    FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data


the results to actual employee withholdings and Postal Service contributions submitted
to OPM to determine whether differences existed.

We conducted this engagement from December 2008 through September 2009 in
accordance with the American Institute of Certified Public Accountants and generally
accepted government auditing standards attestation standards. The sufficiency of the
procedures is solely the responsibility of the Inspector General and the Chief Financial
Officer of the OPM. Consequently, we make no representation regarding the sufficiency
of the procedures described in Appendix B, either for the purpose for which this report
has been requested, or for any other purpose. We discussed our observations and
conclusions with management officials on August 25, 2009, and included their
comments where appropriate.

We relied on computer-generated data from the Postal Service’s payroll system. To
validate the data, we traced the basic pay and benefit categories for selected
employees to supporting documentation and compared the results to the
computer-generated data.

PRIOR AUDIT COVERAGE

                              Report
     Report Title             Number           Final Report Date                Report Results
Independent Report on      FT-AR-08-013      September 12, 2008       Two discrepancies were identified
Withholdings and                                                      in the Supplemental Semiannual
Contributions for                                                     Headcount Report:
Health Benefits, Life
Insurance, Retirement,                                                 1. Aggregate base salaries for
and Employee                                                              Civil Service Retirement
Headcount Data                                                            System (CSRS) offset
                                                                          employees did not accurately
                                                                          reflect the actual salaries paid
                                                                          for the reporting period.
                                                                       2. The number of employees
                                                                          enrolled in the CSRS offset
                                                                          with no deductions made was
                                                                          incorrectly reported.

                                                                      The U.S. Postal Service Office of
                                                                      Inspector General made no
                                                                      recommendations.
Independent Report on      FT-AR-07-013      September 20, 2007       Aggregate base salaries for the
Withholdings and                                                      CSRS offset employees on the
Contributions for                                                     Supplemental Semiannual
Health Benefits, Life                                                 Headcount Report did not
Insurance, Retirement,                                                accurately reflect the actual
and Employee                                                          salaries paid for the reporting
Headcount Data                                                        period. We made no
                                                                      recommendations.
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data


                       APPENDIX B: AGREED-UPON PROCEDURES
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data
Independent Report on Withholdings and Contributions for Health Benefits,   FT-AR-09-010
 Life Insurance, Retirement, and Employee Headcount Data
